                                                    NATIONAL SCIENCE FOUNDATIOI\I
                                                        ARLINGTON, VA 22230




                            Off ice of
                        Inspector General




I
                        MEMORANDUM
                              DATE: August 18, 1995

                              .FROM:-- 7 - . ~ p e c i a l L ~ g . e n        - .. .-
                                                                                    - --   -     -



                         SUBJECT :




                                                         -- -
                                  TO:       I95070027
    I           \

                        On July 11, 1995, our office received documentation from NSF's
                        Division of Financial Management showing that          recipient
        I               NSF Small Business Innovation Research (SBIR) phase I1 award
                               , was attempting to draw funds from the grant even though it
                        had expired. In addition, the original principle investigator had



                                                                            'w
                                                          -
                        been replaced and NSF was not notified.
                        On July 14, 1995, S/A                                       former
            t
                        principle investigator on the grant. 1with3left            in mid-
                        1993, two years after the grant was awarded and one year before it
                        expired.
                                            t
                                           stated that he left

                        way he was treated while employed there.
                                                                      for a more lucrative
                        position with ano her company but that he was satisfied with the
                                                                     In addition,
                    I
                        claimed that the project under the award was going well and that,


                                            -w
                        by the time he had left, a prototype measuring instrument had been
                        produced.            stated that        was well-managed, was not
                        normally late wl   its reports and submissions, and that he could
                        not explain why costs were being claimed after the grant's
                        expiration.

                        In addition, we reviewed               other awards                for       possible
                        duplication of funding and found no improprieties.
                        As we have found no further evidence to warrant an investigation at
                        this time, this case is closed.
